providing photocopies and reprints that you
request, and other special services as allowed
by law.
16. Amendments—We may amend or cancel this
agreement at any time by getting your consent as
provided by law or by giving you a notice of the
amendments. Cards are property of Credit Union
of Texas and must be returned at our request.
17. Military Lending Act—Federal law provides
important protections to members of the
Armed Forces and their dependents relating to
extensions of consumer credit. In general, the
cost of consumer credit to a member of the Armed
Forces and his or her dependent may not exceed
an annual percentage rate of 36 percent.
This rate must include, as applicable to the credit
transaction or account: the costs associated with
credit insurance premiums; fees for ancillary
products sold in connection with the credit
transaction; any application fee charged (other
than certain application fees for specified credit
transactions or accounts); and any participation
fee charged (other than certain participation fees
for a credit card account).
18. Authorized Users—If you ask us to issue a card
to any other person, they are an Authorized User.
We may require certain information about them.
We may limit their ability to use your card. They
may have access to certain information about
your account. You will be responsible for their use
of the account, even if you did not want, or agree
to, that use. If you want to remove an Authorized
User from your account, you must contact
Customer Service and request their removal. You
also must immediately destroy all cards in their
possession and cancel any arrangements they
may have set up on your account. They will be
able to use your account until you have notified
us that you are removing them from your account.
During this time, you will still be responsible for all

amounts they charge to your account. You will be
responsible even if these amounts do not appear
on your account until later. Authorized Users
may remove themselves from your account upon
request. We reserve the right to remove them
from your account for any reason. To remove
them from your account, we may close your
existing account and issue a new card with a new
account number.
19. YOUR BILLING RIGHTS:
KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your
Statement
If you think there is an error on your statement, write
to us at:
Member Services
Box 10409
Des Moines, IA 50306-0409
In your letter, give us the following information:
• Account information: Your name and account
number.
• Dollar amount: The dollar amount of the
suspected error.
• Description of problem: If you think there is an
error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your
statement.
• At least 3 business days before an automated
payment is scheduled, if you want to stop
payment on the amount you think is wrong.
You must notify us of any potential errors in writing.
You may call us, but if you do we are not required to
investigate any potential errors and you may have to
pay the amount in question.

What Will Happen After We Receive Your Letter

when the matter has been settled between us.

When we receive your letter, we must do two
things:
1. Within 30 days of receiving your letter, we must
tell you that we received your letter. We will also
tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must
either correct the error or explain to you why we
believe the bill is correct.

If we do not follow all of the rules above, you do not
have to pay the first $50 of the amount you question
even if your bill is correct.

While we investigate whether or not there has
been an error:
• We cannot try to collect the amount in question
or report you as delinquent on that amount.
• The charge in question may remain on your
statement, and we may continue to charge you
interest on that amount.
• While you do not have to pay the amount in
question, you are responsible for the remainder
of your balance.
• We can apply any unpaid amount against your
credit limit.
After we finish our investigation, one of two things will
happen:
• If we made a mistake: You will not have to pay
the amount in question or any interest or other
fees related to that amount.
• If we do not believe there was a mistake: You
will have to pay the amount in question, along
with applicable interest and fees. We will send
you a statement of the amount you owe and the
date payment is due. We may then report you as
delinquent if you do not pay the amount we think
you owe.
If you receive our explanation but still believe your bill
is wrong, you must write to us within 10 days telling
us that you still refuse to pay. If you do so, we cannot
report you as delinquent without also reporting
that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as
delinquent, and we must let those organizations know

Your Rights If You Are Dissatisfied With Your
Credit Card Purchases
If you are dissatisfied with the goods or services that
you have purchased with your credit card, and you
have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the
remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your
home state or within 100 miles of your current
mailing address, and the purchase price must
have been more than $50.
(Note: Neither of these are necessary if your
purchase was based on an advertisement we
mailed to you, or if we own the company that
sold you the goods or services.)
2. You must have used your credit card for the
purchase. Purchases made with cash advances
from an ATM or with a check that accesses your
credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still
dissatisfied with the purchase, contact us in writing
at:
Member Services
P.O. Box 10409
Des Moines, IA 50306-0409
While we investigate, the same rules apply to the
disputed amount as discussed above. After we finish
our investigation, we will tell you our decision. At that
point, if we think you owe an amount and you do not
pay, we may report you as delinquent.

Cardholder
Agreement
Defined terms – The following terms have defined
meanings in this agreement: “Account” means the
credit Account regulated by this agreement. “Card”
means the plastic cards issued under this agreement,
including the numbers printed on the plastic cards.
“We,” “us” and “our” mean Credit Union of Texas.
“You” and “your” mean anyone who signs an
application for this Account or is a guarantor of this
Account. “Approval Letter” means our letter to you
approving your application and the enclosed pricing
information and other information describing some of
the terms of the Account, all of which are part of this
agreement.
By signing, using or activating a Card, you accept the
terms and conditions of this agreement and of the
Approval Letter. If any provision of this agreement is
determined to be unlawful, the rest of the agreement
will stand, and the unlawful provision will be deemed
amended to conform to applicable law. All Cards are
our property and must be returned to us immediately
according to our instructions, and we may repossess
a Card at any time in our sole discretion.
1. Promise to pay—You agree to pay us the total
amount of purchases, cash advances, finance
charges or other fees or charges which arise

LS 9276
8/18

from use of a Card by you or any other authorized
person, unless the other person does not have
actual, implied, or apparent authority for such use
and you receive no personal benefit from the use.
You agree to be jointly and severally liable with
anyone else who has made the same promise.
2. Credit limit—Your credit limit is reflected on your
monthly statement. You promise to make purchases
and cash advances only up to your credit limit. Your
promise to pay continues to apply even if the
amount due exceeds your credit limit. Obtaining
credit in excess of your credit limit does not increase
your credit limit. We can change your credit limit at
any time to any amount (including zero). We will
state the new credit limit on your next monthly
statement.
3. Purchases and cash advances—You may use
your Card, up to your credit limit, to buy or lease
goods, services or insurance wherever the Card is
honored. You may also use your Card to get a cash
advance from participating financial institutions.
However, you agree not to use your Card for any
transaction that is illegal under applicable federal,
state or local law, and you understand that any
such use will constitute an event of default under
this agreement. We are not responsible for the
refusal of anyone to honor your Card.
4. Monthly statements—We will send you a
statement at the end of each billing cycle in which
the Account has a balance. The due date for your
payment will be 25 days after the last day covered
by the statement.
5. Payments—You agree to make the minimum
monthly payments that are described in the
Approval Letter, and to follow the payment
instructions on your monthly statement. We may
accept late payments, partial payments, postdated checks, or any form of payment containing
a restrictive endorsement, without losing any of
our rights under this agreement. Our acceptance

of checks or money orders labeled “payment in
full” or words to that effect, will not constitute an
accord and satisfaction nor a waiver of any rights
we have to receive full payment. Payments
on your Account that exceed the minimum
payment due will be allocated first to the Account
balance with the highest APR, and then to each
consecutive Account balance bearing the next
highest APR, at the time payment is posted to
your Account. Payments on your Account that
do not exceed the minimum payment due will be
applied in the following order: finance charges,
fees, any applicable installment balance minimum
amount due that is calculated separately from
the minimum payment due, the Account balance
with the lowest APR, then to each consecutive
Account balance bearing the next lowest APR at
the time payment is posted to your Account.
6. Balance Computation Method—We figure the
interest charge on your account by applying the
periodic rate, as stated in the enclosed pricing
information, to the “average daily balance” of your
account. To get the “average daily balance” we
take the beginning balance of your account each
day, add any new purchases/advances/fees, and
subtract any unpaid interest or other finance
charges and any payments or credits. This gives
us the daily balance. Then, we add up all the daily
balances for the billing cycle and divide the total
by the number of days in the billing cycle. This
gives us the “average daily balance.”
7. Cash advance fee—Cash advances are subject
to the cash advance fee stated in the enclosed
disclosure table. The cash advance fee is a
finance charge and is imposed on the date of the
cash advance. Interest does not accumulate on
this fee. The following transactions will be treated
as cash advances:
•

Using your Card to obtain cash from
a
participating
Automated
Teller
Machine(“ATM”);

•

Using your Card to obtain cash from a
participating financial institution;

•

Obtaining money orders, travelers checks,
foreign currency, lottery tickets, casino chips,
vouchers redeemable for cash or similar
items;

•

Balance Transfers, if identified as cash
advances on your Approval Letter.

8. Annual fee—The annual fee, if there is one on
the Account, is stated in the enclosed pricing
information. The annual fee is payable whether or
not you use the Card.
9. Liability for unauthorized use—If you notice
the loss or theft of your Card or a possible
unauthorized use of your Card or Account, you
should write to us immediately at:
P.O. Box 10409
Des Moines, IA 50306-0409
or call us at 1-800-234-5354.
You will not be liable for any unauthorized use
that occurs after you notify us. You may, however,
be liable for unauthorized use that occurs before
your notice to us.
However, if you exercise reasonable care in
safeguarding your card from risk of loss or theft
and, upon discovering the loss or theft promptly
report the loss or theft to us, you will not be liable
for any unauthorized transactions. In any case,
your liability will not exceed $50.
10. Default—You will be in default if you fail to make
any minimum payment or other required payment
by the date that it is due. You also will be in
default if you violate any other provision of this
agreement and such violation materially impairs
the prospect of you paying the amount due on
the Account. Upon default, we may demand
immediate payment of the entire amount due on
the Account and we may enforce our right to this
payment as permitted by law.

11. Consent to Security Interest— You grant us a
security interest in all individual and joint share
and/or deposit accounts you have with us now
and in the future to secure your credit card
account. When you are in default, you authorize
us to apply the balance in these accounts to
any amounts due. Shares and deposits in an
Individual Retirement Account, and any other
account that would lose special tax treatment
under state or federal law if given as security, are
not subject to the security interest you have given
in your shares and deposits. For example, if you
have an unpaid credit card balance, you agree
we may use the funds in your account(s) to pay
any or all of the unpaid balance. By using your
credit card, you are affirmatively agreeing that
you are aware that granting a security interest as
a condition for the credit card and you intend to
grant a security interest.
12. Cross-Collateralization—Credit extended under
this credit card is secured by various personal
property and money including, but not limited to
any good you purchase with this account any
shares you specifically pledged as collateral for
this account and collateral securing other loans
you have with us, excluding dwellings.
13. International transactions—When you use your
Card for a transaction denominated in a currency
other than U.S. dollars, the transaction amount
will be converted into U.S. dollars by applying
an exchange rate selected by Mastercard
International from among the range of rates
available in wholesale currency markets or the
government-mandated rate on the date the
transaction is processed. The rate chosen may
vary from the rate the Mastercard International
itself receives. When you use your Card in a
transaction outside of the United States to make a
purchase, obtain a cash advance, obtain a credit
voucher, or reverse any of these transactions,
a finance charge will be assessed against your

Account, as stated in the pricing information. The
foreign transaction Fee is imposed on the date of
the transaction. Interest does not accrue on the
foreign transaction fee.
14. Credit reporting—You authorize us to obtain
credit reports on you when opening, renewing or
reviewing your Account, and you authorize us
to disclose information regarding your Account
to credit bureaus and other creditors who may
inquire of us about your credit standing. If you think
we reported erroneous information to a credit
reporting agency, write us at the Cardmember
Service address on your billing statement. We will
promptly investigate the matter and, if we agree
with you, we will contact each credit reporting
agency to which we reported request a correction.
If, after our investigation, we disagree with you,
we will tell you in writing or by telephone how to
submit a statement to those agencies for inclusion
in your credit report.
15. Other fees—The following charges will be
charged to your Account as appropriate:
A. Late and returned payment fees--The
following types of fees may be imposed, if
applicable:
• Late Payment Fee: A late payment fee,
in the amount indicated in the enclosed
pricing information, may be imposed if
the required minimum payment due is
not received by the due date listed on the
monthly periodic statement.
• Returned Payment Fee: A returned
payment fee, in the amount indicated in
the enclosed pricing information, may be
imposed if your payment is returned for
any reason.
B. Replacement Cards, copies, and special
services. We may charge you a reasonable
fee for issuing replacement cards, expediting
delivery of your card, an expedited payment
method using a service representative,

